FILED

IN THE SUPREME COURT OF NEBRASKA
State of Nebraska,
Appellee,
v.
Joseph J. Buttercase,

JUN 2 6 2020

)
)
)

No. S-I9-384.

)
)
)

Memorandum Opinion

NEBRASKA SUPREME COURT
COURT APPEALS

AND

Judgment on Appeal

Appellant.
)

Heavican, C.J., Miller-Lerman, Cassel, Stacy, Funke, and Papik.
Papik, J.

Joseph J. Buttercase was convicted and sentenced for various
charges related to a sexual assault. Now in the latest of several
appeals, Buttercase challenges district court orders that denied
a motion for new trial, a motion for DNA testing, and a motion for
appointment

of

counsel.

He

also

challenges

the

denial

of

a

supplemental motion for new trial and a successive motion for
postconviction

relief.

Because all

of Buttercase's

claims are

untimely, procedurally barred, or lack merit, we affirm.
I.

BACKGROUND

On August 17, 2012, following a jury trial, Buttercase was
convicted in the district court for Gage County of first degree
sexual assault,

first degree false imprisonment,

and third degree domestic assault.

strangulation,

The victim was Buttercase's

former girlfriend, T.F. In December 2012, Buttercase was sentenced
to an aggregate term of 26 years and 8 months to 41 years in

II
1
000117117NSC

Certified Page 1 of 46

prison. His convictions and sentences were later affirmed on direct
appeal by the Court of Appeals. See State v. Buttercase, No. A12-1167

(unpublished

memorandum

opinion

released

November

5,

2013) . On direct appeal, Buttercase was represented by the same
counsel who represented him at trial.
On February 19, 2015, Buttercase's new counsel filed a motion
for postconviction relief in the district court. On October 2, the
district court denied Buttercase's postconviction motion without
an evidentiary hearing. Buttercase appealed the district court's
decision,

and

the

Court

of

Appeals

affirmed.

See

State

v.

Buttercase, No. A-15-987 (unpublished memorandum opinion released
December 5, 2017).
On December 9, 2015, while his postconviction appeal was still
pending, Buttercase filed a motion for return of seized property
in the district court. The district court denied the motion, and
Buttercase appealed.

We affirmed.

See State v.

Buttercase,

296

Neb. 304, 893 N.W.2d 430 (2017).
The current appeal involves two groups of motions with many
repetitive

and

overlapping

claims.

The

first

group

includes

Buttercase's motion for DNA testing, motion for new trial,

and

motion for appointment of counsel, all filed in the district court
on

July

14,

supplemental

2017.
motion

The
for

postconviction relief or,

second group
new

trial

consists

and

of

successive

as he styled it,

Buttercase's
motion

for

"motion to vacate,"

2
Certified Page 2 of 46

both filed in 2018. Buttercase filed two notices of appeal, and we
assigned both to the same docket number. We discuss the relevant
facts,

the district court's rulings,

and the current appeal in

more detail below.
II.
Buttercase assigns,

ASSIGNMENTS OF ERROR
restated, that the district court erred

in (1) denying his motion for DNA testing,
for new trial,

(2) denying his motion

(3) denying his motion for appointment of counsel,

(4) denying his supplemental motion for new trial, and (5) denying
his application for postconviction relief without an evidentiary
hearing.
III. STANDARD OF REVIEW
A jurisdictional question that does not involve a

factual

dispute is determined by an appellate court as a matter of law,
which

requires

the

appellate

court

to

reach

a

conclusion

independent of the lower court's decision. State v. A.D., 305 Neb.
154, 939 N.W.2d 484

(2020).

A motion for DNA testing is addressed to the discretion of
the trial court, and unless an abuse of discretion is shown, the
trial court's determination will not be disturbed. State v. Myers,
301 Neb. 756, 919 N.W.2d 893 (2018).
Generally,

decisions

regarding appointment

of

counsel

reviewed for an abuse of discretion. See id.

3
Certified Page 3 of 46

are

An appellate court reviews de novo the trial court's dismissal
of a motion for new trial without an evidentiary hearing. See State
v. Cross, 297 Neb. 154, 900 N.W.2d 1 (2017).
In

appeals

from postconviction proceedings,

an

appellate

court reviews de novo a determination that the defendant failed to
allege sufficient facts to demonstrate a violation of his or her
constitutional rights or that the record and files affirmatively
show that the defendant is entitled to no relief. State v. Allen,
301 Neb. 560, 919 N.W.2d 500 (2018).
Whether a claim raised in a postconviction proceeding is
procedurally barred is a question of law. State v. Hessler, 288
Neb. 670, 850 N.W.2d 777 (2014). When reviewing a question of law,
an appellate court reaches a conclusion independent of the lower
court's ruling. Id.
IV. ANALYSIS
Jurisdiction

1.

Before reaching the legal issues presented for review, it is
our duty to determine whether we have jurisdiction to decide them.
See State v.

Fredrickson,

305 Neb.

165,

939 N.W.2d 385

(2020).

Failure to timely appeal from a final order prevents an appellate
court's exercise of jurisdiction over the claim disposed of in the
order. State v. Banks, 289 Neb. 600, 856 N.W.2d 305 (2014).

In

this

case,

the

task

of

determining

whether

we

have

appellate jurisdiction is more complicated than it typically is.
4
Certified Page 4 of 46

This

is true because But'tercase seeks

court's denial

review of the district

of several different motions;

because he filed

several subsequent motions seeking reconsideration of the adverse
rulings on some of those motions; and because he filed two notices
of appeal. Further, his motions implicate some open questions under
our law.

But as we will explain, we nonetheless conclude that

Buttercase

has

timely

appealed

from

the

orders

he

seeks

to

challenge. We begin by reviewing familiar principles relating to
the timeliness of appeals.
Appeals must be filed within 30 days after the entry of the
judgment,

decree,

(Reissue 2016).

or final order. Neb. Rev.
However,

in some cases,

Stat. § 25-1912(1)

we have

recognized a

mechanism for terminating that period. See, e.g., Clarke v. First
Nat'1 Bank of Omaha, 296 Neb. 632, 895 N.W.2d 284 (2017); State v.
Bao,

269 Neb.

127,

690 N.W.2d 618

(2005). In such cases, § 25-

1912(3) provides that the 30-day period may be terminated by filing
a motion to alter or amend within 10 days of the judgment. Neb.
Rev. Stat. § 25-1329 (Reissue 2016). A new period of 30 days for
filing a notice of appeal commences when the terminating motion is
ordered dismissed. Id. But "[w]hen any motion terminating the time
for filing a notice of appeal is timely filed by any party,

a

notice of appeal filed before the court announces its decision
upon the terminating motion shall have no effect, whether filed

5
Certified Page 5 of 46

before or after the timely filing of the terminating motion." §
25-1912 (3).
Typically,
the

time

for

a motion for reconsideration does not terminate
appeal

and

is

considered

nothing more

than

an

invitation to the court to consider exercising its inherent power
to vacate or modify its own judgment. See State v. hotter,

301

Neb. 125, 917 N.W.2d 850 (2018), citing Kinsey v. Colfer, Lyons,
258 Neb. 832, 606 N.W.2d 78 (2000). For this reason, we have held
that once a notice of appeal is filed,

any pending motions to

reconsider that have not been ruled upon become moot. See Kinsey
v.

Colfer,

Lyons,

supra.

In

some

contexts,

a

motion

for

reconsideration may also be treated as a motion to alter or amend
a judgment for purposes of terminating the appeal period. State v.
hotter,

supra.

To be treated as a motion to alter or amend a

judgment, a motion for reconsideration must be filed no later than
10 days after the entry of judgment and seek substantive alteration
of the judgment. See id. See, also, State v. Gibilisco, 279 Neb.
308, 778 N.W.2d 106 (2010).
In light of these principles, we now consider the timeliness
of Buttercase's appeals from the orders he seeks to challenge.
First,

Buttercase

timely

appealed

the

order

denying

the

motion for new trial, the motion for DNA testing, and the motion
for appointment of counsel. On April 16, 2019, the district court
denied these three motions. On April 19, Buttercase filed a notice
6
Certified Page 6 of 46

of appeal.

On April 24,

Buttercase moved the district court to

reconsider and alter or amend the April 16 order.

The same day,

the district court denied Buttercase's "Motion to Alter or Amend
and Motion to

Reconsider."

motion to reconsider,

On May

1,

Buttercase

filed another

requesting that the district court grant,

among other things, the motion for new trial, the motion for DNA
testing, and the motion for appointment of counsel. On May 2, the
district court denied the relief requested in the May 1 motion to
reconsider. Buttercase filed a second notice of appeal on May 15.
We have not previously addressed whether motions to alter or
amend or motions for reconsideration can operate as terminating
motions for appeals of rulings on motions for new trial, motions
for DNA testing,

and motions for the appointment of counsel. But

If Buttercase's motions
we need not take up that question today.
to reconsider or alter or amend filed on April 24 and May 1, 2019,
did not operate as terminating motions, Buttercase timely filed a
notice of appeal on April 19, within 30 days of the April 16 order,
and the subsequent motions to reconsider were moot. If any of the
foregoing motions did operate as terminating motions, the district
court disposed of them before Buttercase filed his notice of appeal
on May 15. That notice of appeal was filed within 30 days of each
was not rendered
order disposing of the terminating motions and
ineffective by any pending terminating motion. Thus, regardless of
whether the April 24 and May 1 motions were terminating motions,
7
Certified Page 7 of 46

Buttercase's appeal was timely as to the rulings on the motion for
new trial, motion for DNA testing, and motion for appointment of
counsel.
Similar reasoning leads us to conclude that Buttercase timely
appealed the order that denied his supplemental motion for new
trial. On March 20, 2019, the district court denied Buttercase's
supplemental motion for new trial along with his successive motion
for postconviction relief. On March 26, Buttercase filed a motion
to reconsider that order to the extent it denied his supplemental
motion for new trial. On April 19, within 30 days of the order
that rejected his supplemental motion for new trial, Buttercase
filed his first notice of appeal in this case. On May 1, Buttercase
filed another motion to reconsider, requesting that the district
court

grant

his

supplemental

motion

for new trial

and

other

motions. On May 2, the district court denied Buttercase's requests
to reconsider the denial of his supplemental motion for new trial.
Buttercase filed his second notice of appeal on May 15.
Again, we need not consider whether Buttercase could file a
terminating motion in the context of his supplemental motion for
new trial.

Buttercase's appeal from the order that denied his

supplemental motion for new trial is timely regardless of whether
his motions to reconsider operated as terminating motions. If the
March 26 and May 1, 2019, motions to reconsider did not operate as
terminating motions, Buttercase's April 19 notice of appeal was
8
Certified Page 8 of 46

timely filed within 30 days of the March 20 order.

Under this

scenario, both the March 26 motion to reconsider and the May 1
motion to reconsider that followed it were rendered moot.
If

Buttercase's

motions

to

reconsider

did

operate

as

terminating motions, he still timely appealed the order denying
his supplemental motion for new trial. The May 2,

2019,

order

rejected Buttercase's request for reconsideration of the order
that denied his supplemental motion for new trial. Buttercase filed
his second notice of appeal on May 15, within 30 days of the May
2 order. Although that notice of appeal specifically designated
the April 16 order that addressed the motions for new trial, for
DNA testing, and for appointment of counsel as the order appealed
from, § 25-1912(1) does not require that the order be correctly
identified to

confer appellate jurisdiction.

See Dominguez v.

Eppley Transp. Services, Inc., 277 Neb. 531, 763 N.W.2d 696 (2009).
Finally, Buttercase timely appealed the order that denied his
successive motion for postconviction relief. On March 20, 2019,
Buttercase's
motion

for

supplemental motion for new trial
postconviction

relief

were

denied.

and successive
On

March

26,

Buttercase filed a motion to reconsider the March 20 order to the
extent it denied his supplemental motion for new trial. As noted
above,

we have recognized terminating motions in appeals from

rulings on motions for postconviction relief. See, e.g., State v.
Bao,

269 Neb.

127,

690 N.W.2d 618

(2005).

But the motion to

9
Certified Page 9 of 46

reconsider did not address the postconviction ruling;

it only

sought reconsideration of the denial of the supplemental motion
for new trial. We need not decide in this case whether the March
26 motion to reconsider operated as a terminating motion with
respect to the order denying postconviction relief because, again,
Buttercase timely appealed the order denying postconviction relief
either way.

If the March 2 6 order was not a terminating motion,

Buttercase's April 19 notice of appeal was timely. If the March 26
order was a terminating motion, his May 15 notice of appeal was
timely.
For these reasons, we have jurisdiction to consider the errors
assigned and argued in Buttercase's brief.
2.
Moving

to

the

Motion for DNA Testing

merits

of

the

appeal,

we

first

address

Buttercase's contention that the district court erred in denying
his motion for DNA testing filed pursuant to Neb. Rev. Stat. § 294120 (Reissue 2016). The motion references a DNA analyst's report,
dated October 27, 2011,
scene evidence.

The

on testing of samples taken from crime

DNA analyst's

report was not received as

evidence at trial, but the analyst did testify, and her testimony
was consistent with her report.
Buttercase alleged the report was potentially exculpatory but
that it had not been disclosed to him until after trial, during
discovery

arising

from

a

federal

indictment.

According

10
Certified Page 10 of 46

to

Buttercase,

the report's findings of DNA evidence containing a

"mixture of at least two individuals" suggested that T.F. could
have had sex with multiple males around the time she alleged that
Buttercase assaulted her and that one of those males could have
caused her injuries. He also generally alleged that the biological
material from the crime scene "can be subjected to retesting with
more current DNA techniques that provide a reasonable likelihood
of more accurate and probative results."
At a hearing on the motion, the district court took judicial
notice of the report.

Buttercase did not offer any additional

evidence. The district court denied Buttercase's motion for DNA
testing and his

subsequent motions to alter or amend and to

reconsider. We conclude that this was not an abuse of discretion.
Under the DNA Testing Act, forensic DNA testing is available
for any biological material that is related to the investigation
or prosecution that resulted in the judgment; is in the actual or
constructive possession of the state, or others likely to safeguard
the integrity of the biological material;

and either was not

previously subjected to DNA testing or can be retested with more
accurate current techniques. See § 29-4120(1); State v. Myers, 301
Neb. 756, 919 N.W.2d 893 (2018). Pursuant to § 29-4120(5), "[u]pon
consideration of affidavits or after a hearing," the court shall
order testing upon a determination that

(a) (i)

the biological

material was not previously subjected to DNA testing or (ii) the
11
Certified Page 11 of 46

biological material was tested previously, but current technology
could

provide

a

reasonable

probative results,
under

likelihood

of

more

accurate

and

(b) the biological material has been retained

circumstances

likely to

safeguard the

original physical composition, and (c)

integrity of

its

such testing may produce

noncumulative, exculpatory evidence relevant to the claim that the
person was wrongfully convicted or sentenced.
Because an action under the DNA Testing Act

is civil in

nature, the defendant has the burden to provide the district court
with

affidavits

or

evidence

establishing

the

factual

determinations the district court must make under § 29-4120(5).
See State v. Young, 287 Neb. 749, 844 N.W.2d 304 (2014) . Buttercase
did not satisfy this burden.
There is no dispute that the biological material from the

i

crime scene has been subjected to DNA testing. Thus, under Neb.
Rev. Stat. § 29-4120(5)

(Reissue 2016), Buttercase had the burden

to

technology

show

that

likelihood

of

current
more

accurate

and

could

provide

probative

a

reasonable

results.

Nothing

Buttercase submitted to the district court made such a showing.
Similarly, Buttercase's allegation that the DNA analyst's report
in this case was not disclosed to him until after trial does not
show how current technology could provide a reasonable likelihood
of more accurate and probative results.

In the absence of the

requisite showing by Buttercase, we conclude that the district
12
Certified Page 12 of 46

court did not abuse its discretion in denying Buttercase's motion
for DNA testing.
Motion

3.

for

New Trial

We now turn to Buttercase's contention that the district court
erred in denying his motion for new trial filed July 14, 2017. He
asserts various instances of newly discovered evidence pursuant to
Neb.

Rev.

Stat.

§ 29-2101(5)

but many of his

(Reissue 2016),

claims of
allegations can be more accurately characterized as
prosecutorial or juror misconduct under § 29-2101(2). Regardless
of their framing,

none of Buttercase's claims justified a new

trial. We address each one in turn below.
(a) Prosecutorial Misconduct
Buttercase's . motion

for

new

prosecution had committed several

trial

(3)

that

instances of misconduct.

asserts misconduct in failing to disclose
authored by T.F.,

alleged

(1)

the
He

Facebook messages

(2) sex tapes from Buttercase's camcorder, and

the aforementioned DNA report. Buttercase also alleged that

the State had "mixed another individual[']s discovery with [his]
discovery," which raised questions about whether the State was
intentionally withholding additional exculpatory evidence.
With respect to his claims that the State failed to disclose
the various items mentioned above,

Buttercase appears to argue

that he is entitled to a new trial both because the failure to
disclose

those

items

constituted prosecutorial misconduct

and

13
Certified Page 13 of 46

because

the

items

constitute

newly

discovered

evidence

for

purposes of § 29-2101(5). As explained below, we find Buttercase
was not entitled to a new trial on either basis.
(i) Facebook Messages
Regarding the Facebook messages authored by T.F., Buttercase
alleged that he did not receive them until after trial. He claimed
that they showed T.F.'s motives to harm him with false accusations.
A new trial may be granted based on "newly discovered evidence
material

for

the

defendant

which

he

or

she

could

not

with

reasonable diligence have discovered and produced at the trial"
and materially affects the defendant's substantial rights. Neb.
Rev.

Stat. § 29-2101(5)

alleging

newly

(Reissue 2016). A motion for new trial

discovered

evidence

must

be

filed

"within

reasonable time after the discovery of the new evidence"

a

and

"cannot be filed more than five years after the date of the
verdict, unless the motion and supporting documents show the new
evidence could not with reasonable diligence have been discovered
and produced at trial and such evidence is so substantial that a
different result may have occurred." Neb. Rev. Stat. § 29-2103(4)
(Reissue 2016).
Here, because Buttercase filed his motion for new trial just
shy of five years after the verdict, we must consider whether he
did so within a reasonable time. Regarding the Facebook messages,
we conclude that he did not.

Buttercase's reply brief concedes
14
Certified Page 14 of 46

that he received the Facebook messages as discovery in his federal
case in 2013, after his trial in state district court, but he
asserts that the documents were "reduced in size to eight pages
per sheet making most of it illegible with parts of the text
missing." Reply brief for appellant at 2. According to Buttercase,
he did not receive legible documents from his federal counsel until
March 9, 2016. But even if the Facebook messages disclosed in 2013
were not legible, Buttercase knew about them at least as early as
2015: the parties do not dispute that Buttercase previously raised
the same issue in his first motion for postconviction relief. He
filed the current motion for new trial on July 14, 2017. During
this interval,

Buttercase had ample time to raise the issue of

newly discovered evidence in a motion for new trial, but he did
not.
And even if we were to consider the filing of the motion for
new trial to be timely under § 29-2103(4), Buttercase has not shown
that the content of the Facebook messages would have materially
affected his substantial rights. Those messages between T.F. and
Buttercase's ex-wife state, in relevant part:
[T.F.]:

I

didn't

block

you

[on

social

media].

[Buttercase] did. He took over my old account and deleted it.
. . I had to make a new one. He's only smart in stupid ways
but I'm smart instupid ways so I played his game lol.

15
Certified Page 15 of 46

[S.P.]: With [Buttercase] ...you got to learn his game and
play it better ... its a great feeling to beat him at his
own game.
[T.F.]: Damn right! He never saw me cornin'! I've got his
ass tied up in court for the rest of his natural life. He
shouldn't of threatened me with his mommy's law suit money
cuz my grandparents have far more. And [Buttercase] took my
grandpas ladder so he made it personal with him! Not a wise
move.

[S.P.]: What I read in the papers about what he did to
you ... is horrible . . . im glad you made it out alive .
. . I also pray for your safety between now and the time he
actually goes to court!

... I hope with everything in me

that he goes to jail...but there is a huge part of me that
believes that in one way or another he will got off this to...
[T.F.]: The papers made it seem like no big deal. He
beat me for 3 hours straight. Tried to kill me a few times.
.

.

[Buttercase's attorney]

.

. is trying to prove all

warrants were executed illegally but the warrants were signed
by the same judge who is trying this case so I doubt he will
entertain that.

.

.

. Plus my attorney and the judge play

golf together and he likes me so hopefully I win my replevin
for all my shit he stole from me and he gets fucked in the
criminal case. He is looking at 7felonies and 1 misdemeanor.
I don't think he's going far. He should just save the money
and give me back all my stuff and his pretty lil blue car to
replace the one he stole and wrecked from me. its not like
he's ever gonna need it! ;)

!

16
Certified Page 16 of 46

[T. F.] : .

His problem is he's never been in trouble

so maybe some time in the clink will help him grow up.
[T.F.]: .

[It] would butt hurt him like no other to

think that [his daughter] gets to see me and not him even if
she isn't.!!! HAHAHAHAHA my brain can do this all day every
day because I'm so much better at his games than he is!!!! I
admit I crack myself up sometimes!!!!
[S.P.]: he needs his head fucked with...I think it would
do him some good[.]
[T.F.]: he needs his eyes popped out and skull fucked is
what he needs.
[T.F.]: Ya I got questioned by the sheriffs. I told them
I didn't know anything about him doing or running drugs. . .

Buttercase

contends

that

the

Facebook messages

may

show

him with false accusations, in
T.F. 's ulterior motives to harm
T.F.'s
short, that she "set [him] up." Brief for appellant at 14.
but a
statements undoubtedly exhibit animosity toward Buttercase,
to this criminal case,
reading of the entire exchange shows that as
to account for his
T.F. was expressing a desire to hold Buttercase
assaultive behavior, something that had not happened in the past.
consistent with
Further, T.F. ' s statements about the assault were
her trial testimony.

If Buttercase had been able to offer the

17
Certified Page 17 of 46

Facebook messages at trial, they would not have impeached T.F.'s
credibility or altered the outcome of trial.
For similar reasons, we conclude that Buttercase has not shown
prosecutorial

misconduct

related

to

the

Facebook

messages.

Buttercase asserts that the messages were material exculpatory
evidence which the prosecution was required to disclose before
trial. That is, he alleges a violation under Brady v. Maryland,
373 U.S. 83, 83 S. Ct. 1194, 10 L. Ed. 2d 215 (1963). Under the
U.S. Supreme Court's holding in Brady, the prosecution has a duty
to disclose all favorable evidence to a criminal defendant prior
to trial, even if the defense has not requested it. See Strickler
v. Greene, 527 U.S. 263, 119 S. Ct. 1936, 144 L. Ed. 2d 286 (1999) .

There are three primary components of a Brady violation. First,
the evidence at issue must be favorable to the accused, either
because it is exculpatory, or because it is impeaching.

Id. See

also, State v. Lykens, 271 Neb. 240, 710 N.W.2d 844 (2006). Second,
the

evidence must

willfully

or

been

inadvertently.

suppression must
Facebook

have

messages

have

ensued.

were

suppressed by the
Id.
Id.

neither

Third,
As

we

State,

prejudice
have

exculpatory

either

from

the

explained,

the

nor

impeaching;

therefore, Buttercase was not prejudiced by their absence at trial.
As a result, his allegation of prosecutorial misconduct fails.

18
Certified Page 18 of 46

(ii) Sex Tapes

As

for the five sex tapes,

Buttercase alleged that this

footage from his camcorder was exculpatory because it showed T.F.
consenting to acts before the date of the assault that she later
claimed were done without her consent during the assault. See Neb.
Rev.

Stat.

§

27-412(2) (a) (ii)

(Cum.

Supp.

2010)

(authorizing

admission of victim's prior sexual behavior only to show the victim
consented to alleged sexual misconduct) .
Buttercase made an argument based on the tapes—that the State
withheld video evidence of T.F. previously consenting to certain
sex acts—two years before the current motion for new trial when he
sought to amend his prior postconviction motion.

See

State v.

Buttercase, No. A-15-0987 (memorandum opinion released December 5,
2017).

On appeal from the denial of that motion,

the Court of

Appeals observed that it was unclear how a video of Buttercase and
T.F. engaged in consensual sexual activity before the assault would
have changed the outcome of the case, as it was undisputed that
the two were in a consensual sexual relationship during the months
preceding the assault. Id.
Based on the Court of Appeals' analysis, the law-of-the-case
doctrine

precludes

reconsideration

of

whether

Buttercase's

substantial rights were materially affected. See State v. Cross,
297 Neb. 154,

157,

900 N.W.2d 1, 4

(2017)

("[N]ew trial may be

granted only if the ground materially affects the defendant's
19
Certified Page 19 of 46

substantial

rights.")

Under

the

law-of-the-case doctrine,

the

holdings of an appellate court on questions presented to it in
reviewing proceedings of the trial court become the law of the
case;

those holdings conclusively settle,

litigation,

all

matters

ruled

upon,

for purposes of that

either

expressly

or

by

necessary implication. State v. Lavalleur, 298 Neb. 237, 903 N.W.2d
464

(2017). The law-of-the-case doctrine operates to preclude a

reconsideration of substantially similar, if not identical, issues
at successive stages of the same suit or prosecution. Id. Matters
previously addressed in an appellate court are not reconsidered
unless

the

petitioner

presents

materially

and

substantially

different facts. Id. Here, Buttercase has presented no such facts
that would allow for reconsideration of the Court of Appeals'
conclusion that the tapes would not have had any effect on the
outcome at trial. Therefore, the district court did not err in
declining to grant a new trial based on the sex tapes.
(iii) DNA Report

Buttercase also claims he was entitled to a new trial based
on the aforementioned DNA report. As noted above, the report was
not offered at trial; but the DNA analyst testified that she had
prepared a report, and her trial testimony generally followed the
report. Buttercase's counsel did not object to the testimony but
extensively cross-examined the analyst regarding the testing.

20
Certified Page 20 of 46

Whether the allegations regarding the DNA report are viewed
through the lens of newly discovered evidence or prosecutorial
misconduct, the district court did not err in denying relief. A
report that was referenced at trial would not constitute newly
discovered evidence, Further, § 29-2103(3) requires a motion for
new trial based on prosecutorial misconduct to be filed within 10
days of the verdict unless "unavoidably prevented." See also, §
29-2101(2).

Because Buttercase's counsel was aware of the DNA

report well before the verdict, to the extent the motion filed
years after trial seeks relief based on alleged prosecutorial
misconduct, it is not timely.
(iv) Discovery Materials
Finally,

Buttercase's

motion

for

new

trial

claimed

prosecutorial misconduct in that he received another individual's
discovery materials from the State along with his own. According
to Buttercase, this raised questions about whether the State was
withholding exculpatory evidence from him. We fail to see how the
State's inclusion of additional discovery materials shows that
exculpatory evidence was withheld. And because Buttercase ought to
have been aware of the matter before trial, it does not qualify as
!

newly discovered evidence and any claimed Brady violations in his
motion for new trial, filed more than 10 days after the verdict,
were alleged out of time. See §§ 29-2101(2), 29-2101(5), and 292103(3) .
21
Certified Page 21 of 46

(b) Judicial Misconduct
Buttercase's motion for new trial alleged several instances
of judicial misconduct in that (1) the trial judge admonished him
in front of the jury; (2) T.F. sent Buttercase's ex-wife a Facebook
message prior to trial stating that her attorney and the judge
play golf together and that the judge likes T.F.; and (3) the trial
judge's rulings on pretrial motions "made it nearly impossible for
a full and proper defense of consensuality." Because this court
has previously rejected these claims, the district court did not
err in doing so as well.
In State v. Buttercase, 296 Neb. 304, 893 N.W.2d 430 (2017),
we addressed all three of these allegations of judicial bias when
we affirmed the denial of Buttercase's motion for return of seized
property.

We found that Buttercase had waived these claims of

partiality made in his appellate brief by failing to raise them
before the district court. Yet we explained that even if we were
to consider Buttercase's allegations of judicial bias, they lacked
merit. Id. See also, State v. Buttercase, No. A-15-987 (unpublished
memorandum

opinion

released

December

5,

2017)

(declining

to

address the district court's admonishment of Buttercase and T.F.'s
Facebook remarks about the judge because they were first raised in
Buttercase's appellate brief, filed June 3, 2016).

Buttercase has presented no facts to distinguish the current
allegations of judicial misconduct from the ones we have already
22
Certified Page 22 of 46

rejected.

Thus,

the

law of the case doctrine precludes their

reconsideration. See State v. Lavalleur, 298 Neb. 237, 903 N.W.2d
464

(2017) . We conclude that the district court did not err in

declining

to

retry

Buttercase

based

on

judicial

misconduct

allegations after we stated that they lack merit.
(c) Juror Misconduct
Next,

Buttercase argues that the district court erred in

denying him a new trial due to juror misconduct. In his motion,
Buttercase

claimed

that

"far after trial,"

his

trial

counsel

informed him that a juror was sleeping during trial. Buttercase
claimed that he was unaware of this conduct at the time of trial
and it substantially affected his right to a fair trial. He further
alleged that juror questionnaires showed that one male juror was
married to a woman who worked with T.F. and that another male juror
was married to a woman who worked with a witness. The jurors were
admonished not to discuss the case, but they were not sequestered.
Buttercase alleged the spousal connections created a conflict of
interest that justified the male jurors' dismissal because they
could have communicated with their spouses about the case.

We

conclude that Buttercase did not present grounds for new trial.
Again, Buttercase filed his motion for new trial out of time.
A motion for new trial based on juror misconduct "shall be filed
within ten days after the verdict was rendered unless such filing
is

unavoidably

prevented[.]"

§§

29-2101(2);

29-2103(3).

The

23
Certified Page 23 of 46

current motion for new trial was filed several years after the
verdict, and the information upon which Buttercase now bases his
allegations of juror misconduct was available to him or his counsel
at the time of trial.
(d) Eyewitness Sondra Aden
Buttercase claims that the district court erred in declining
to

grant

his

eyewitness

motion

Sondra

for

Aden,

new

trial

Buttercase's

based

on

the

neighbor.

But

account

of

again

we

discern no basis for a new trial, as this issue has long since
been resolved.
The motion for new trial currently before us requested the
district court to reconsider its ruling on a previous motion for
new

trial,

which

was

based on

information provided by Aden.

According to evidence at trial, Buttercase subjected T.F. to a
lengthy

and

particularly

Buttercase's conviction,
discovered evidence,

violent

sexual

assault.

After

he moved for new trial based on newly

claiming that after trial, Aden made known

that she had observed T.F. leaving Buttercase's residence on the
morning after the assault and that T.F. did not appear injured.
The district court rejected Buttercase's motion for new trial. On
direct

appeal,

Buttercase, No.

the

Court

of Appeals

affirmed.

See

State

v.

A—12-1167 (unpublished memorandum opinion released

November 5, 2013) . It reasoned that even assuming without deciding
that the evidence was newly discovered, it would not have produced
24
Certified Page 24 of 46

a substantially different result if offered at trial because it
served only to impeach T.F.'s testimony and was cumulative of other
testimony that T.F. did not immediately appear to be injured.
Now in this appeal, Buttercase asks us to find error in the
district court's decision not to order a new trial based on "newly
discovered evidence" that the Court of Appeals squarely rejected.
But as explained above, under the law-of-the-case doctrine, the
district court was bound by the Court of Appeals' conclusion that
Aden's account, even if newly discovered, was not a basis for a
new trial.

See State v. Lavalleur,

298 Neb. 237, 903 N.W.2d 464

(2017). Once the Court of Appeals had spoken, the district court
was precluded from reconsidering the issue at a successive stage
of the same suit, in the absence of materially and substantially
different

facts.

Id.

And Buttercase presented no

such

facts,

Accordingly, we conclude that the district court did not err in
rejecting Buttercase's attempt to raise the same issue again.
(e) Actual Innocence and Findings of Fact and Conclusions of Law
Finally, Buttercase asserts that based on the foregoing he
!

has established his actual innocence and that the district court
committed reversible error in an order that denied a new trial
without making findings of fact or conclusions of law. See § 292102(2)(if motion for new trial and supporting documents set forth

I

sufficient facts, court shall grant a hearing and make findings of
fact and conclusions of law) . Having rejected all of the other
25
Certified Page 25 of 46

grounds upon which Buttercase relies in support of his motion for
new trial, we reject these as well.
4.

Motion

for

Appointment

of

Counsel

Concurrent with his motions for new trial and for DNA testing,
Buttercase moved for the appointment of counsel to represent him
on those motions. At a hearing on September 17, 2017, the district
court declined to appoint counsel unless and until it granted one
or both motions. As noted above, the district court ultimately
denied both motions, and we have concluded that it did not err in
doing so. Consequently, we conclude that the district court did
not err in denying Buttercase the appointment of counsel.
5.

Supplemental Motion

for

New Trial

Buttercase also contends that the district court erred in
denying

his

supplemental

motion

for

new

trial.

For

reasons

explained below, we disagree.
(a)
Buttercase

Charlotte Hamlin Interview

contends

that

the

district

court

erred

in

declining to grant his supplemental motion for new trial based on
an alleged police

interview of Charlotte Hamlin.

Buttercase's

supplemental motion for new trial alleged that in July 2017, during
the course of litigation related to a child of Buttercase and
Hamlin, he learned that Hamlin had been interviewed by police prior
to his criminal trial. According to Buttercase's motion, police
made misleading statements during the interview to "cause drama"
26
Certified Page 26 of 46

and interfere with his visitation with his child. Buttercase claims
that the State committed prosecutorial misconduct by failing to
disclose the details of this interview.
Buttercase has not shown how any withholding of this interview
materially affected his substantial rights as is required to obtain
a new trial. See § 29-2101. See also, State v. Cross, 297 Neb.
154, 900 N.W.2d 1 (2017). Nor did he show prejudice to support any
claimed Brady violation. The record reveals nothing that shows the
interview would have had any effect at trial. The district court
did not err in denying a motion for new trial on this ground.
(b)

Voir Dire

Buttercase next asserts that he was prejudiced by juror bias
because

two

jurors

responded

during voir dire

that

it

would

"bother" them if the victim and the defendant had previously dated.
Buttercase's

supplemental

motion

for

new

trial

alleged

that

selection of these jurors constituted prosecutorial misconduct and
ineffective assistance of counsel.

No matter how the claim is

framed, Buttercase has not shown he was entitled to an evidentiary
hearing or a new trial.
To

the

extent

Buttercase

contends

that

these

jurors'

statements qualify as newly discovered evidence, he is not entitled
to relief. As previously stated, a motion for new trial cannot be
filed more than five years after the date of the verdict, unless
the motion and supporting documents show the new evidence could
27
Certified Page 27 of 46

not with reasonable diligence have been discovered and produced at
trial.

§§

29-2101(5)

and

29-2103(4).

Buttercase

filed

his

supplemental motion for new trial more than five years after the
verdict.

The

jurors'

reasonable diligence,

statements were made

in voir dire.

With

Buttercase's counsel could have addressed

any claims of juror bias at trial.
If the claim is based on alleged juror or prosecutorial
misconduct, it is also untimely. A motion for new trial based on
these grounds must be filed within 10 days of the verdict unless
"unavoidably

prevented."

See

§§

29-2101(2)

and

29-2103(3).

Buttercase has not explained why he was unavoidably prevented from
raising an issue that was evident to his counsel at the outset of
trial.
As to any assertion that a new trial was warranted due to
ineffective assistance of counsel in jury selection, Buttercase is
again incorrect. Ineffective assistance of counsel is not a ground
for new trial under § 29-2101.
(c)

Cell Phone Records

Buttercase contends that he was entitled to an evidentiary
hearing and a new trial because the State illegally obtained his
cell phone records. He appears to frame this as an issue of newly
discovered

evidence

and

prosecutorial

misconduct.

Buttercase

claims that he did not know prior to trial that the records had
been illegally obtained in violation of his rights under the Fourth
28
Certified Page 28 of 46

Amendment

to

the

U.S.

Constitution.

Even

if

Buttercase could

repackage a Fourth Amendment claim in this manner, he has not shown
a basis for new trial. According to the record, the cell phone
records were not received as evidence at trial. Instead, they were
used on cross-examination to refresh Buttercase's memory about
text messages he sent prior to the assault to women other than
T.F. Because Buttercase was aware that the records were in the
State's possession, he could have taken steps at the time of trial
to determine whether they were illegally obtained. Accordingly,
this issue cannot be termed "newly discovered." See § 29-2101(5).
And Buttercase was not unavoidably prevented from raising this
claimed instance of prosecutorial misconduct within 10 days of
trial. See § 29-2103(3).
6.

Successive Motion

for

Postconviction Relief

We next address Buttercase's contention that the district
court erred in not granting him an evidentiary hearing upon his
successive motion for postconviction relief.
Under

Nebraska's

postconviction

statutes,

a

prisoner

in

custody under sentence may move for relief on the ground there was
such a denial or infringement of the prisoner's constitutional
rights as to render the judgment void or voidable, § 29-3001. If
a postconviction motion alleges only conclusions of fact or law,
i

or if the records and files in the case affirmatively show that
the defendant is entitled to no relief, the court is not required
29

i

Certified Page 29 of 46

to grant an evidentiary hearing. State v. Nolan, 292 Neb. 118, 870
N.W.2d 806 (2015). See also, § 29-3001(2)

("Unless the motion and

the files and records of the case show . . . that the prisoner is
entitled to no relief," court must hold an evidentiary hearing.)
This
relief.

is

not

Buttercase's

Postconviction

first motion

proceedings

are

not

for postconviction
a

tool

whereby

a

defendant can continue to bring successive motions for relief.
State v. Carter, 292 Neb. 16, 870 N.W.2d 641 (2015). The need for
finality in the criminal process requires that a defendant bring
;

all claims for relief at the first opportunity. Id. A defendant is
entitled

to

bring

a

successive

proceeding

for

postconviction

relief only if the grounds relied upon did not exist at the time
the prior motion was filed. See State v. Hessler, 288 Neb. 670,
850 N.W.2d 777 (2014). Likewise, a motion for postconviction relief
cannot be used to secure review of issues which were or could have
been litigated on direct appeal. State v. Allen, 301 Neb. 560, 919
N.W.2d 500 (2018) .
We have recognized two exceptions to the procedural bar in
postconviction proceedings:

first, motions based on ineffective

assistance of trial or direct appeal counsel which could not have
been raised earlier, and second, motions based on newly discovered
evidence that was not available at the time the prior motion was
filed. See State v. Hessler, supra.

30
Certified Page 30 of 46

We

conclude

that

the

district

court

correctly

denied

Buttercase's successive motion for postconviction relief,

Under

the principles above, the claims asserted were procedurally barred
or were insufficient to show he was entitled to an evidentiary
hearing. We analyze each claim below.
(a)
In

Insufficient Evidence and Excessive Sentence

his

successive

motion

for

postconviction

relief,

Buttercase alleged that evidence at trial was insufficient to
support his convictions and that his sentences were excessive.
Buttercase could have
appeal.

State

See

memorandum

opinion

v.

(and did)

raise these

Buttercase,

released

No.

November

issues on direct

A-12-1167
5,

2013) .

(unpublished
A motion

for

postconviction relief cannot be used to secure review of issues
which were or could have been litigated on direct appeal. State v.
Allen,

301

Neb.

560,

919

N.W.2d

500

(2018).

Buttercase

was

procedurally barred from raising these issues in his motion for
postconviction relief.
(b)

Ineffective Assistance of Trial Counsel
(i)

Walmart Surveillance

Buttercase argues that the district court erred in not finding
merit to his claim that his trial counsel was ineffective in not
investigating Walmart surveillance footage. Buttercase alleged in
his successive motion for postconviction relief that footage taken
of T.F. at Walmart on July 17, 2011, the day after the assault,
31
Certified Page 31 of 46

would have shown T.F.

moving about,

apparently uninjured.

But

Buttercase's motion states that before trial, he asked his counsel
to review the surveillance footage and his counsel neglected to do
so. Rather than affirmatively showing on its face that this alleged
basis for relief was not available when Buttercase first moved for
postconviction relief with the assistance of new counsel,

his

successive motion for postconviction relief shows the opposite.
This,

along with witness testimony that T.F. was at Walmart on

July 17, illustrates that Buttercase could have pursued the matter
in his prior motion for postconviction relief. Accordingly, the
claim is procedurally barred.
(ii) Eyewitness Sondra Aden
Buttercase claims that his trial counsel was ineffective in
failing to investigate the account of eyewitness Aden that T.F.
did not appear injured when she left Buttercase's house after the
assault. However, Buttercase has not shown that this alleged basis
for relief was unavailable at the time of his prior motion. To the
contrary,

Buttercase relied on Aden's account in a post-trial

motion for a new trial. Denial of that motion was later affirmed
by the Court of Appeals on direct appeal. See State v. Buttercase,
No. A-12-1167 (unpublished memorandum opinion released November 5,
2013).

Buttercase

also

postconviction motion.
(unpublished

memorandum

raised

See

this

State v.

opinion

issue

Buttercase,

released

in
No.

December

his

first

A-15-0987
5,

2017).

32
Certified Page 32 of 46

Because Buttercase has not shown the alleged basis for relief was
unavailable at the time of the prior motion, he is procedurally
barred

from

raising

the

issue

in

successive

his

motion

for

counsel

was

postconviction relief.
(Hi)
Buttercase

next

Westlaw Research
that

asserts

his

trial

ineffective in failing to conduct a Westlaw search that would have
revealed T.F.'s grandfather had been convicted of rape decades
before

According to Buttercase, this information could have been
at trial. While we do not understand how this

used to impeach T.F

information could have been used for impeachment,

we need not

consider that question further. Buttercase's motion does not and
cannot show why he could not have sought relief based on this
;

decades-old conviction when he

filed his prior postconviction

motion. Accordingly, the claim is procedurally barred.
(iv) Tape Measure Photographs
Buttercase's

successive

motion

for

postconviction

relief

alleged that his trial counsel was ineffective in failing to object
when the State introduced exhibits 40,
trial.

Buttercase's

motion

alleged

41, and 52 through 64 at
that

these

"tape

measure

photographs" had not been disclosed prior to trial and that his
In the current
trial counsel should have objected on Brady grounds.
appeal,

Buttercase argues that the district court erred in not

granting him an evidentiary hearing on this basis.
33
Certified Page 33 of 46

Buttercase

raised

a

similar

issue

regarding

unidentified

photographs in his first motion for postconviction relief. Even if
these were not the same photographs to which Buttercase now refers
in the current appeal, the photographs now at issue were received
at trial, and Buttercase's successive motion for postconviction
relief did not demonstrate why he could not have raised this claim
in his earlier attempt at postconviction relief. Consequently, the
claim is procedurally barred.
(v)

Tungsten Ring

Buttercase argues in this appeal that the district court erred
in not finding merit to his assertion that his trial counsel was
ineffective for failing to obtain forensic analysis and testimony
concerning Buttercase's tungsten ring. His successive motion for
postconviction relief asserts that this claim was presented in his
first

bid

for

postconviction

relief.

Again,

Buttercase's

successive motion for postconviction relief shows that this is not
his

first

opportunity

to

raise

this

claim

and

thus

he

is

procedurally barred from raising the issue now.
(vi) Dr. Julie Jurich

In his successive postconviction motion, Buttercase claimed
that his trial counsel was ineffective in failing to make the
proper Daubert objection to the testimony of Dr. Julie Jurich, a
sex therapist who testified about the physical implications of
certain sex acts. See Daubert v. Merrell Dow Pharmaceuticals, Inc.,

34
Certified Page 34 of 46

509 U.S. 579, 113 S. Ct. 2786, 125 L. Ed. 2d 469 (1993). In the
current appeal, Buttercase asserts that the district court erred
in rejecting this claim. But Buttercase raised this issue in his
first postconviction motion. And although he may have raised it
with additional specificity in his successive motion, he has not
shown that it was unavailable when he first sought postconviction
relief. Accordingly, the issue is procedurally barred.
(vii)

Buttercase

also

Medical Expert

argues that

the district

court

erred

in

denying him an evidentiary hearing based on his claim that his
trial counsel was ineffective for failing to call medical expert
Jennifer Johnson to testify at trial. According to Buttercase's
successive postconviction motion, Johnson, whom he had hired prior
to

trial,

would

have

testified

that

T.F.'s

injuries

were

inconsistent with her account of the sexual assault. Buttercase
made the same allegation regarding an unnamed expert in his first
motion for postconviction relief, the denial of which the Court of
Appeals affirmed based on an absence of specific allegations. See
State v. Buttercase, supra. Regardless of whether the two motions

involved the same expert,

it is clear that Buttercase,

who was

aware of this expert prior to trial, failed to show why he could
not have made this claim in his first motion. Therefore, the claim
is procedurally barred.

35
Certified Page 35 of 46

(viii)

Change of Venue

In the current appeal, Buttercase contends the district court
erred

in

not

successive

granting

an

postconviction

evidentiary
claim

that

hearing
his

based

trial

on

his

counsel

was

ineffective for failing to move for a change of venue. But again,
Buttercase attempts to rehash an allegation he has already made.
Buttercase

raised

the

postconviction relief;

same

claim

in

his

first

attempt

the district court rejected it;

at

and the

Court of Appeals affirmed. See State v. Buttercase, No. A-15-987
(unpublished

memorandum

opinion

released

December

5,

2017).

Because this claim for relief was clearly available to Buttercase
then, he is procedurally barred from raising it now.
(ix) Mistrial

Buttercase contends that the district court committed error
in declining to grant him an evidentiary hearing based on the
allegation that his trial counsel was ineffective when it failed
to move for a mistrial after the trial court chastised Buttercase
in front of the jury.

But his successive postconviction motion

does not affirmatively show why he could not have addressed these
events,

which

occurred

at

the

time

of

trial,

in

his

prior

postconviction motion. In fact, as Buttercase acknowledges in his
successive postconviction motion,

he did previously raise this

issue in his first attempt to obtain postconviction relief. As a
result, the claim is procedurally barred.
36
Certified Page 36 of 46

(x)

Text Messages

Buttercase contends that the district court erred in denying
him an

evidentiary

hearing based

on

his

successive

motion's

allegation that his trial counsel was ineffective in failing to
object to

the admission of certain text messages authored by

Buttercase. The record reflects that the messages were not received
in evidence but were used to refresh Buttercase's memory on crossexamination by the State. In any case, Buttercase could have raised
the issue in his first motion for postconviction relief, but he
did not. It is thus procedurally barred.
(xi) Independent DNA Expert

Buttercase claimed in his successive postconviction motion
that his trial counsel was ineffective in not hiring an independent
DNA expert to subject the State's

DNA evidence to additional

analysis. Buttercase argues in the current appeal that the district
court erred in declining to grant him an evidentiary hearing on
this basis. But Buttercase has made no showing why this claim was
not available to him when he filed his first postconviction motion,
despite awareness of the presence of DNA evidence before trial
commenced. The claim is procedurally barred.
(c)

Ineffective Assistance of Appellate Counsel
(i)

In

his

successive

Franks Hearing

motion

for

postconviction

relief,

Buttercase claimed that his appellate counsel, the same counsel
37
Certified Page 37 of 46

who represented him at trial, rendered ineffective assistance in
failing to assign and argue that the district court erred in
denying his motion for a Franks hearing. See Franks v. Delaware,
438 U.S. 154, 98 S. Ct. 2674, 57 L. Ed. 2d 667 (1978). Now in the
current appeal,

Buttercase asserts the district court ought to

have

an

given

him

evidentiary

hearing

on these

grounds.

But

Buttercase raised this very allegation of ineffective assistance
in his prior postconviction motion,

and the Court of Appeals

rejected it because the hearing pertained to charges that had been
severed and dismissed.

See

State v.

Buttercase,

No.

A-15-987

(unpublished memorandum opinion released December 5, 2017). It is
procedurally barred.
(ii) Motions to Suppress
Buttercase next contends that the district court erred in not
granting an evidentiary hearing based on his successive motion's
allegation that his appellate counsel was ineffective in failing
to assign and argue that the district court erred in denying his
first

and

second

motions

to

suppress.

But

again,

Buttercase

attempted to raise this issue in his prior bid for postconviction
relief, which the district court rejected. The Court of Appeals
affirmed.

See

State

v.

Buttercase,

No.

A-15-987

(unpublished

memorandum opinion released December 5, 2017). As Buttercase could
have—and

effectively

did—raise

this

issue

in

his

prior

postconviction'motion, it is procedurally barred.
38
Certified Page 38 of 46

False Imprisonment Evidence

(Hi)

Buttercase's next argument pertains to sufficiency of the
evidence for the false imprisonment charge. He contended in his
successive motion for postconviction relief that his appellate
counsel was ineffective in not assigning and arguing that evidence
for this charge was insufficient. Buttercase is correct that no
such error was assigned and argued on direct appeal.

However,

Buttercase's successive motion does not show why this issue could
not

have

been

raised

in

his

earlier

postconviction

motion.

Consequently, it is procedurally barred.
(iv) Dr. Julie Jurich
Buttercase's
appellate

counsel

final

claim

relates

to

of

ineffective

Jurich's

assistance

testimony.

of

Buttercase

asserts that the district court erred in rejecting his claim that
his appellate counsel was ineffective in failing assign and argue
that the trial court erred in denying his relevance and Rule 403
objections to Jurich's testimony. It is true that this issue was
not assigned and argued on direct appeal.

But as noted above,

Buttercase was aware of this potential error during the previous
postconviction proceedings. And because he has not shown he could
not have raised it then, it is procedurally barred.

39
Certified Page 39 of 46

Buttercase's

(d)

Prosecutorial Misconduct

(i)

Tape Measure Photographs

successive

motion

for

postconviction

relief

argued that the State withheld exhibits 40, 41, and 52 through 64.
Buttercase's motion alleged that these "tape measure photographs"
had not been disclosed prior to trial but were received at trial.
Buttercase argues that the district court erred in not granting
him an evidentiary hearing due

to this

alleged prosecutorial

misconduct. But as noted above, the photographs were received at
trial. Buttercase could have raised this issue in his first attempt
at

postconviction

relief,

and

his

successive

motion

did

not

demonstrate to the contrary. The claim is procedurally barred.
(ii) Facehook Messages

Buttercase

claimed

evidentiary

hearing

exculpatory

Facebook

discussed above.

was

in

his

merited

messages

He asserts

successive
because

from

him,

motion

the
the

that the district

that

an

State

withheld

same

messages

court erred in

rejecting this argument. However, as we have explained, the parties
do not dispute that Buttercase was aware of these messages, at the
latest, when he previously sought postconviction relief in 2015.
And even if he had not been, the messages were not exculpatory so
as

to

demonstrate

a

violation

of

Buttercase's

constitutional

rights or show he was entitled to postconviction relief. See State
v. Cross, 297 Neb. 154, 900 N.W.2d 1 (2017). To establish a Brady
40
Certified Page 40 of 46

violation,

prejudice

must

have

resulted

from

the

State's

suppression of evidence. See State v. Lykens, 271 Neb. 240, 710
N.W.2d 844 (2006). As we have already explained, the messages would
not have impeached T.F.'s credibility or altered the outcome of
trial. Because Buttercase cannot show prejudice, he has not alleged
a sufficient basis for postconviction relief.
Sex Tapes

(Hi)

Buttercase asserts that he was entitled to an evidentiary
hearing based on his successive motion's allegation that the State
failed to disclose the previously-mentioned sex tapes from his
camcorder. Buttercase's motion to introduce sex tapes at trial and
his role in filming the footage belie any claim that he could not
have made this assertion in his first attempt at postconviction
relief.

In fact,

Buttercase unsuccessfully sought to amend his

The Court of
first postconviction motion to include this claim.
;
!

Appeals"observed that it was unclear how a video showing activity
before the July 2011 assault could have changed the outcome of the

!

case

and

affirmed.

See

State

v.

Buttercase,

No.

A-15-987

(unpublished memorandum opinion released December 5, 2017). Thus,
even if this claim were not procedurally barred,

it would not

provide a basis for an evidentiary hearing, as Buttercase cannot
demonstrate the prejudice necessary for a Brady violation.

See

State v. Cross, supra; State v. Lykens, supra. As such, we conclude

41
Certified Page 41 of 46

that the district court did not err in denying an evidentiary
hearing on this claim.
(iv) Michelle Collier Interview
Buttercase's final postconviction allegation of prosecutorial
misconduct involves a police interview with his ex-girlfriend,
Michelle Collier.

He asserts that the district court erred in

denying him an evidentiary hearing based on the State's failure to
disclose a video of the interview.

But Buttercase's successive

motion alleges that the video was disclosed at trial, immediately
before Collier's testimony. Rather than affirmatively showing that
Buttercase could not have raised this claim, though likely waived
at trial, in his prior postconviction motion, his successive motion
demonstrates the opposite. See State v. Smith, 292 Neb. 434, 873
N.W.2d 169 (2016). The claim is procedurally barred.
(e)

Judicial Bias

Buttercase next argues that he was entitled to an evidentiary
hearing due to judicial bias. His successive motion alleged that
the district court exhibited partiality in admonishing Buttercase

i

in front of the jury and that partiality was further demonstrated
by statements in the Facebook messages discussed above that the
judge plays golf with T.F.'s attorney and "likes" T.F. Regarding
the admonishment, which occurred at trial, Buttercase's successive
motion does not show why he could not have raised this issue in

i

his prior postconviction motion, and we need not consider it. The
42
Certified Page 42 of 46

same can be said of the Facebook messages, as the parties do not
dispute

that

Buttercase

was

aware

of

these

messages

when he

previously sought postconviction relief.
Furthermore, neither of these claims warrant an evidentiary
hearing because the record affirmatively shows that Buttercase is
not entitled to postconviction relief. As noted earlier, we have
already determined in an earlier appeal that these claims lack
merit.

See

State v.

Buttercase,

296 Neb.

304,

893 N.W.2d 430

(2017) . Accordingly, the district court did not err in declining
See State v.

to grant an evidentiary hearing on these grounds.
Lavalleur, 298 Neb. 237, 903 N.W.2d 464 (2017).
(f)
In Buttercase's next

Juror Bias
claim for postconviction

relief,

he

asserts that two jurors exhibited bias in responding during voir
dire that it would "bother" them if the victim and the defendant
had

previously

motion

alleged

dated.
both

Buttercase's

prosecutorial

successive
misconduct

postconviction
and

ineffective

assistance of trial counsel in allowing selection of these jurors.
However, Buttercase has not demonstrated why this alleged bias and
counsel's response,

which was revealed before trial,

could not

have been raised in his previous motion for postconviction relief.
Accordingly, this claim too is procedurally barred.

43
Certified Page 43 of 46

Constitutionality of Postconviction Act

(g)

Buttercase asserts that the district court erred in denying
him an evidentiary hearing to address his successive motion's
challenge to the constitutionality of the Nebraska Postconviction
Act, Neb. Rev. Stat. §§ 25-3001 to 29-3004, as applied to him.
Buttercase claims that his constitutional rights were violated by
the denial of his motion to amend his first postconviction motion.
Buttercase had sought to add the claim that the State failed to
disclose

video

evidence

of

Buttercase

and

T.F.

engaged

in

consensual sex acts one month before the assault. The district
court

denied

the

motion

to

and the

amend,

Court

of Appeals

affirmed.
In addressing this matter the Court of Appeals determined
that the proposed amendment lacked merit:
Whether Buttercase's amendment sufficiently related back to
his original postconviction motion or not does not change the
fact that Buttercase was not deprived of a substantial right
or just result by not being permitted to amend his original
motion as requested.

His proposed amended claim that the

State's failure to turn over the video of Buttercase and the
victim engaged in sexual activity one month prior to the
assault somehow prejudiced him and denied him due process and
effective
record.

assistance
We

note

of counsel

initially

is

that

not

supported by the

Buttercase's

proposed

amendment did not explain the significance of the video or
how it would have changed the outcome of the case, and was
therefore insufficiently pled even if the amendment had been
44
Certified Page 44 of 46

allowed. Notably, however, it was undisputed at trial that
Buttercase and the victim had engaged in consensual sex,
including being sexually intimate periodically for several
months

See

State v.

opinion

released

after they broke up in March 2011.

Buttercase,

No.

A-12-1167

(memorandum

November 5, 2013). Since the assault leading to Buttercase's
conviction occurred in July 2011, it is unclear how a video
showing Buttercase and the victim engaged in sexual activity
approximately one month before the assault would have changed
the outcome of the case.
State v. Buttercase, No. A-15-987 (unpublished memorandum opinion
released December 5, 2017).
The

Court

of

Appeals'

analysis

shows

that

because

Buttercase's proposed amendment lacked merit, he was not harmed by
the denial of his motion for leave to amend pursuant to the Act.
Accordingly, the district court did not err in rejecting his asapplied challenge. Indeed, based on the law-of-the-case doctrine,
the district court would have been remiss in finding otherwise.
See

State

v.

Lavalleur,

298

Neb.

237,

903 N.W.2d 464

(2017)

(holdings of appellate court on questions presented become law of
the case and those holdings conclusively settle all matters ruled
upon expressly or by necessary implication).

Consequently,

district court did not err in denying Buttercase's

the

successive

motion for postconviction relief on these grounds.

45
Certified Page 45 of 46

(h)

Actual Innocence

Finally, Buttercase contends that all of his postconviction
allegations demonstrate his actual innocence.

Because we have

rejected all of his claims, we reject this one as well.
V. CONCLUSION
For the foregoing reasons, we conclude that the district court
did not err in denying Buttercase's motion for DNA testing, motion
for new trial, and motion for appointment of counsel. Nor do we
find any error in its denial of Buttercase's supplemental motion
for new trial and successive motion for postconviction relief or
"motion to vacate." Consequently, we affirm.
Affirmed.
Freudenberg, J., not participating.

46

Certified Page 46 of 46

CERTIFIED COPY
Page
1

Document
Memo Opinion

Date
06/26/2020

I, Wendy A. Wussow, Clerk of the Nebraska Supreme Court, certify that I
have compared the following
46 page(s) to be a full, true, and correct
copy of the original record on file.
Supreme Court No:
Caption:
Trial Court:
Trial Court No:

S-19 - 03 84
State v. Joseph J. Buttercase
Gage County District Court
CR11-124

IN TESTIMONY WHEREOF, I have placed my sig:
Date:

June 26, 2020

BY THE COURT a
CLERK

APPENDIX

Filed in Gage District Court
EFILED
Case Number: D03CR110000124
Transaction ID: 0008369194
**■*

IN THE DISTRICT COURT OF GAGE COUNTY, nIE®A03/20/201 9 11 1514 AM CDT
STATE OF NEBRASKA,
Plaintiff,
v.
JOSEPH J. BUTTERCASE,
Defendant,

)
)
)
)
)
)
):
)
)

Case No. CR 11-124

ORDER

NOW on this 20thday of March, 201:9, the Defendant’s pending motions come on for decision.
1.
2.
3.
4.
5.
6.
7.

Motion to Vacate filed April 6,2018:
Motion for Counsel filed April 6, 2018;
Motion for Case Progression Hearing filed July 11,2018;
Motion for New trial filed July 11, 2018;
Motion for Acquittal filed July 11, 2018;
Motion for Summary Judgment filed November 16,2018; and
Motion for Case. Progression filed November 16, 2018.
The Defendant stands convicted of first degree sexual assault, first degree false imprisonment,

strangulation, and third degree domestic assault for events occurring in 2011 involving a victim who shall
be referred to as “TF.”
The Court will first discuss the Motion for New trial filed on July 11, 2018. The motion claims
that the Defendant should be granted a new trial on three general grounds: first, that the State did not
disclose to him prior to trial that it had interviewed Charlotte Hamlin; that two jurors indicated during
voir dire that it would “bother them” if they discovered that tire Defendant was in a relationship; as a
consequence, he claims that his lawyer was ineffective for not striking them; third, that his cell phone
records were illegally subpoenaed.
hi regard to Ms. Hamlin, the attached documentation reveals that Ms. Hamlin is the mother of the
Defendant’s daughter who was born around the time of the crimes for which the Defendant stands
convicted. She is not ‘TF.”

The motion and attached affidavits reveal nothing that indicates how

release of the information would have affected the Defendant’s trial; rather, they only accuse the State
investigator of contacting Ms. Hamlin in an effort to curtail visitation between the Defendant and his
infant daughter. It makes no statement showing how this fact, if true, materially affected the substantial
rights of the Defendant in this criminal trial.
Further, the mere statement by a juror in voir dire that a prior relationship in a sexual assault trial
“might bother him” also fails to show bias of the juror that should lead to disqualification. Significantly,

Page 487 of 644

the Defendant did not attach to his affidavit any of the colloquy showing bias or prejudice of these two
jurors, nor was any follow up questioning that may have assuaged this potential issue.
Finally, he attacks the “illegal subpoena” ^of his phone. Again, there is no showing that this
evidence was withheld from the Defendant.
The statute that sets for the standard for a new trial is as follows:
(2) If the motion for new trial and supporting documents fail to set forth
sufficient facts, the court may, on its own motion, dismiss the motion
without a hearing. If the motion for new trial and supporting documents
set forth facts which, if true, would materially affect the substantial rights
of the defendant, the court shall cause notice of the motion to be served
on the prosecuting attorney, grant a hearing on the motion, and determine
the issues and make findings of fact and conclusions of law with respect
thereto.
R.R.S. Neb. §29-2102
The Defendant has failed to make the requisite showing. This motion is dismissed.
The balance of the pending motions are dismissed, as they lack substance, are not procedurally
correct, or, as in the case of the Motion for Summary Judgement, they are simply not applicable to a
criminal case.

IT IS SO ORDERED
BY THE COURT:

Vicky L. Jcj
District Jud

Page 488 of 644

Filed in Gage District Court
*** EFILED ***
Case Number: D03CR110000124
Transaction ID: 0008517696
Filing Date: 04/16/2019 02:41:37 PM CDT

IN

the DISTRICT

COURT OF GAGE COUNTY, NEBRASKA

STATE OF NEBRASKA,
Plaintiff,
v.
JOSEPH J. BUTTERCASE,
Defendant.

)
)
)
)
)
)
)
)
)

Case No. CR 11-124

ORDER

NOW on this 16th day of April, 2019, the Defendant’s pending Motions for DNA
Testing and a New Trial come on for decision.
The Defendant stands convicted of First Degree Sexual Assault, First Degree False
Imprisonment, Strangulation, and Third Degree Domestic Assault for events occurring in 203 1
involving a victim who shall be referred to as “TF.” Trial was had to a jury on August 13-17,
2012, and a guilty verdict on four of the five charges was reached on August 17, 2012.
The Defendant alleges that he was denied access to a DNA report evidence prior to his
trial; the State argues that he was not.
At issue is a laboratory report dated October 27, 2011. The Defendant refers to it as
Exhibit P in the attachment to his Motion. Sixteen separate samples were identified. Most were
tested against known samples of the Defendant and TF. The Defendant was included as a
possible source in nine of the samples. He was either excluded or a conclusion was not reached
in the other seven samples.
The Defendant argues that as he was excluded as the source of semen in four of the
samples, TF obviously had sex with another man who could have been the source of her injuries.
He claims that her testimony that she had not had sex with another individual is obviously false,
and he should have been allowed to cross-examine her in this regard. See Neb. Rev. Stat. §27-

Page 1 of 7

412. Finally, he argues that as he was unaware of the lab tests at trial, he should be allowed
DNA testing.
The State responded by letter brief dated September 22, 2017, which the Defendant has
attached as Exhibit S.

The State argues generally that the record makes it clear that the

Defendant was aware of the lab test results, as his counsel referred to them during trial.
The Defendant proceeds under Neb. Rev. Stat. §29-4116 et. seq. Neb. Rev. Stat, §294120 reads as follows :
(1) Notwithstanding any other provision of law, a person in
custody pursuant to the judgment of a court may, at any time after
conviction, file a motion, with or without supporting affidavits, in
the court that entered the judgment requesting forensic DNA
testing of any biological material that:
(a) Is related to the investigation or prosecution that resulted in
such judgment;
(b) Is in the actual or constructive possession or control of the state
or is in the possession or control of others under circumstances
likely to safeguard the integrity of the biological material’s original
physical composition; and
(c) Was not previously subjected to DNA testing or can be
subjected to retesting with more current DNA techniques that
provide a reasonable likelihood of more accurate and probative
results. [Emphasis supplied ]
A review of the trial record indicates the following: the State was represented by Mr.
Greg Ariza at jury trial, and the Defendant was represented by Mr. Jason Troia. On August 15,
2012, the State called Ms. Melissa Kreikemeier as a witness. (Bill of Exceptions, Volume HI,
beginning at Page 578). Ms. Kreikemeier is a forensic scientist at the Nebraska State Patrol
Crime Laboratory. On page 593, she indicates that she was asked to examine 16 pieces of
evidence submitted by the Beatrice Police Department. The victim was identified as T.F. and the
Defendant was identified as Joseph Buttercase (p. 594). During Ms. Kreikemeier’s testimony,
12 pieces of evidence were offered into evidence, including diagrams and photos of items which

Page 2 of 7

she tested for DNA evidence. During testimony of other witnesses, the actual items tested
(jeans, socks, shoes, tee shirt and a second pair ofjeans) were received into evidence.
The testimony of Ms. Kreikemeier follows generally the Laboratory Report dated
October 27, 2011. This is the evidence which the Defendant claims he did not receive before
trial. Significantly, the testimony of Ms. Kreikemeier was received without the Defendant’s
counsel objecting that he had not seen the results; in fact, he extensively cross-examined the
witness on her DNA testing. It is clear to this Court that the defense had prior knowledge of the
DNA testing before trial.
Therefore, the Court finds that the items that the Defendant requests to be subjected to
DNA testing have previously been tested, that the defense was aware of the results, and that the
Motion for DNA Testing should be and hereby is overruled.
As a consequence, thereof, the Motion for New Trial is likewise overruled.

IT IS SO ORDERED
BY THE COURT:

Vicky L. Jolpson
District Judge

Page 3 of 7

